                          CLOSEOUT FOR M98100028


       The Office of Inspector General (OIG) received a telephone call from a National
Science Foundation (NSF) program officer' who provided information concerning
possible misrepresentation of the publication status of several manuscripts by a scientist2'
(the subject) in an NSF proposal.3 According to the program officer, an NSF peer
reviewer4noticed that several publication citations listed as accepted in the subject's NSF
proposal have not subsequently appeared in the scientific literature.

        A close examination of three NSF proposals and two progress reports5 submitted
by the subject confirmed the possible misrepresentation of the publication status of
several manuscripts. These NSF proposals and progress re orts contain two references to
manuscripts with "conditional acceptance for publication" ?or "accepted with revisions"
which have not appeared in the scientificjournal after the passage of months or years. In
addition, our office noticed several inconsistencies in the authorship lists8 and titlesg of
publication citations at different points in the NSF proposals and progress reports.
Accordingly, OIG sent a letter to the subject requesting a clarification of the present
status (authorship, title and publication status) of these manuscripts.

        The subject sent a reply letter explaining that a journal editor suggested title
changes on two manuscripts. These changes were properly reflected in some, but not all
sections of the subject's NSF proposals and progress reports. The change in the
authorship list on one manuscript involved a last minute addition of a student researcher.
In response to our questions concerning the delayed publication of several manuscripts,
the subject explained that fimding problems and significant additional research caused the
protracted delay in the final publication of these manuscripts. The subject provided
confirmation that these manuscripts are presently "in press" at the scientific journal.

       After considering this response, our office sent a letter cautioning the subject
about the phrases "conditional acceptance for publication" or "accepted with revisions"
when the editorial revisions may require years of additional experimentation. In addition,
OIG suggested the subject submit an amendment which corrected all inconsistent
1
    [Footnote redacted]

    [Footnote redacted]
3
    [Footnote redacted]

    [Footnote redacted]
5
    [Footnote redacted]

    [Footnote redacted]

' [Footnoteredacted]
    [Footnote redacted]

    [Footnote redacted]



                                       Page 1 of 2
                           CLOSEOUT FOR M98100028

publication citations in the recently declined 1999 NSF proposal. In response, the subject
sent an email message to another NSF program officer'' containing an amended
bibliography for the 1999 NSF proposal. A copy of this email message was sent to our
office. In this amended bibliography, the subject corrected all inconsistent publication
citations contained in the 1999 NSF proposal. Accordingly, this case is closed.




'O   [Footnote redacted]


                                      Page 2 of 2
